     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




       U.S. Reconstruction Efforts in Afghanistan Would
         Benefit from a Finalized Comprehensive U.S.
                   Anti-Corruption Strategy




                                          August 5, 2010



SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


August 5, 2010

The Honorable Hillary Rodham Clinton
U.S. Secretary of State

The Honorable Karl W. Eikenberry
U.S. Ambassador to Afghanistan

General David Petraeus
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Earl Gast
USAID Mission Director to Afghanistan

This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s review of U.S. efforts to strengthen the anti-corruption capabilities of the Afghan
government. It includes recommendations to finalize the draft U.S. anti-corruption strategy for
Afghanistan and to consider increasing the level of assistance provided to key Afghan oversight
institutions—particularly internal audit departments of Afghan government ministries.

A summary of this report is on page ii. This performance audit was conducted by the Office of the
Special Inspector General for Afghanistan Reconstruction under the authority of Public Law No. 110-181
and the Inspector General Act of 1978, as amended. When preparing the final report, we considered
comments from the U.S. Embassy in Kabul and USAID/Afghanistan. These comments indicated
concurrence with our findings and recommendations. A copy of these comments is included in
appendix V of this report. We also received technical comments on the draft report from the U.S.
Embassy, USAID, and the Departments of Justice, Homeland Security, and Defense, which are
incorporated, as appropriate, into the final report. Comments provided by CENTCOM, USFOR-A, and
CSTC-A, although technical in nature, have been included as appendix VI of this report.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General
     for Afghanistan Reconstruction


SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                                Page i
                                                           SIGAR Audit-10-15                                           August 2010


                 SIGAR
     SpecialInspectorGeneralforAfghanistanReconstruction
                                                           U.S. Reconstruction Efforts in Afghanistan
                                                           Would Benefit from a Finalized
                                                           Comprehensive U.S. Anti-Corruption Strategy
What SIGAR Reviewed
Fighting corruption and increasing accountability are important components of the U.S. reconstruction strategy for
Afghanistan. This report by the Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR) identifies
(1) U.S. assistance to help the Afghan government develop its anti-corruption capabilities and (2) the capacity of
Afghanistan’s key anti-corruption institutions. To accomplish these objectives, we reviewed relevant U.S., Afghan, and
international laws, conventions, standards, and development strategies. We also interviewed officials of the
Departments of State, Defense, Treasury, and Justice, and the U.S. Agency for International Development (USAID),
international organizations such as the World Bank and the United Nations Development Program, and various Afghan
government institutions. We conducted our work in Kabul, Afghanistan, and Washington, D.C., from August 2009 to July
2010, in accordance with generally accepted government auditing standards. A detailed discussion of our scope and
methodology is included in appendix I.


What SIGAR Found
Since 2002, the United States has appropriated more than $50 billion for reconstruction assistance in Afghanistan, and
the Obama administration has recently submitted budget requests for an additional $20 billion to help the Afghan
government build its capacity to defend itself and govern effectively. Whereas the majority of prior U.S. assistance
bypassed the Afghan government by providing funds directly to contractors and nongovernmental organizations, the
new U.S. funding approach calls for significantly more U.S. assistance to be channeled through the Afghan government.
The success of this approach will depend to a large degree on the capacity of the Afghan government to manage U.S.
reconstruction funds and protect them from waste, fraud, abuse, and other forms of corruption. Because corruption,
widely acknowledged to be a pervasive, systemic problem across Afghanistan, corrodes the Afghan government’s
legitimacy and undermines international development efforts, the United States has made strengthening the Afghan
government’s capability to combat corruption a priority. Developing a more coordinated approach to build the capacity
of Afghan oversight institutions becomes increasingly important as the U.S. government plans to provide much of its
future reconstruction assistance to Afghanistan through the Afghan government. The U.S. Embassy has drafted a
comprehensive anti-corruption strategy, and several U.S. agencies have assistance programs to help build the capacity
of the Afghan government to combat corruption. However, the U.S. government has not yet approved the strategy to
provide guidance to those agencies. Accordingly, the majority of U.S. assistance to Afghanistan has been provided
without the benefit of such a strategy. While the Afghan government has established a number of anti-corruption
institutions, they lack independence, audit authority, and capacity. U.S. anti-corruption efforts in Afghanistan have
provided relatively little assistance to some key Afghan oversight institutions.

What SIGAR Recommends
To improve and direct U.S. anti-corruption efforts in Afghanistan and to help strengthen the capacity of Afghan
government institutions to combat corruption and protect U.S. and other donor funds from waste, fraud, and abuse,
SIGAR recommends that the U.S. Secretary of State:
    1.    Approve and implement the draft comprehensive U.S. anti-corruption strategy for reconstruction efforts in
          Afghanistan, and
    2.    Review key Afghan oversight institutions to determine whether the United States should provide them more
          assistance to strengthen their ability to combat corruption in Afghanistan and provide accountability over U.S.
          reconstruction funds channeled through the Afghan government.
The U.S. Embassy in Kabul and USAID/Afghanistan provided joint comments on a draft of this report. The comments
reflected concurrence with and support for the report’s recommendations and outlined actions they have taken or will
take to address both of the report’s recommendations.


                     For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                                                       Page ii
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
A Finalized Comprehensive U.S. Anti-Corruption Strategy Is Needed to Help
   Build the Capacity of Afghan Oversight Institutions ................................................................................ 3
Key Afghan Oversight Institutions Lack Adequate Independence, Audit
   Authority, and Capacity ........................................................................................................................... 6
Conclusion ..................................................................................................................................................... 9
Recommendations ...................................................................................................................................... 10
Comments ................................................................................................................................................... 10
Appendix I: Scope and Methodology ......................................................................................................... 12
Appendix II: U.S. Agencies and Multilateral Trust Funds With Anti-Corruption
  Programs and Activities In Afghanistan ................................................................................................. 13
APPENDIX III: Afghan Government Institutions With Significant Anti-
  Corruption Responsibilities.................................................................................................................... 20
APPENDIX IV: Defining Corruption in Afghanistan ..................................................................................... 23
APPENDIX V: Comments From U.S. Embassy Kabul and USAID ................................................................. 24
APPENDIX VI: Comments from CENTCOM, USFOR-A, and CSTC-A ............................................................ 26




ACRONYMS

ANDS                                 Afghanistan National Development Strategy
ANSF                                 Afghan National Security Force
ARTF                                 Afghanistan Reconstruction Trust Fund
CAO                                  Control and Audit Office
CENTCOM                              United States Central Command
CSTC-A                               Combined Security Transition Command-Afghanistan
DEA                                  Drug Enforcement Administration
HOO                                  High Office of Oversight
INL                                  Bureau for International Narcotics and Law Enforcement Affairs
LOTFA                                Law and Order Trust Fund for Afghanistan
SIGAR                                Special Inspector General for Afghanistan Reconstruction
USAID                                United States Agency for International Development
USFOR-A                              United States Forces-Afghanistan




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                                                                                Page iii
           U.S. Reconstruction Efforts in Afghanistan Would Benefit from a
                Finalized Comprehensive U.S. Anti-Corruption Strategy


Since 2002, the United States has appropriated more than $50 billion for reconstruction assistance in
Afghanistan. In February 2010, the Obama administration submitted budget requests for an additional
$20 billion to help the Afghan government build its capacity to defend itself and govern effectively. The
majority of U.S. assistance has been directly managed by U.S. agencies, bypassing the Afghan
government. Consistent with a new donor approach adopted in January 2010, the United States plans
to direct up to half of its future reconstruction assistance through Afghan government channels.
However, this support is contingent on a reduction in corruption, among other things. 1 The success of
this new funding approach will depend, to a large degree, on the capacity of the Afghan government to
manage U.S. reconstruction funds and protect them from waste, fraud, abuse, and other forms of
corruption. However, more than $50 billion in U.S. assistance has been provided for reconstruction in
Afghanistan without the benefit of a comprehensive anti-corruption strategy and U.S. efforts in
Afghanistan have provided relatively little assistance to some key Afghan oversight institutions.

This report identifies (1) U.S. assistance to help the Afghan government develop its anti-corruption
capabilities and (2) the capacity of Afghanistan’s key anti-corruption institutions. SIGAR has conducted
several other audits to assess what the United States is doing to help build the capacity of Afghan
institutions to prevent corruption and strengthen the rule of law within Afghanistan. 2

To accomplish these objectives, we reviewed relevant U.S., Afghan, and international laws, conventions,
standards, and development strategies. We interviewed officials of the Departments of State, Defense,
Treasury, and Justice, and the U.S. Agency for International Development (USAID), international
organizations such as the World Bank and the United Nations Development Program, and Afghan
government institutions, and obtained information from the Department of Homeland Security. We
conducted our work in Kabul, Afghanistan, and Washington, D.C., from August 2009 to July 2010, in

1
 During a January 2010 multi-donor conference in London to discuss development assistance to Afghanistan, the
United States, along with other members of the international donor community, committed to increase the
percentage of reconstruction assistance delivered through the Afghan government to 50 percent in the next
2 years. This support was conditioned on the Afghan government’s progress in strengthening public financial
management systems, reducing corruption, improving budget execution, and developing a financing strategy and
government capacity to meet the goal. Conference participants confirmed their intention to establish a detailed
roadmap with the Afghan government and to provide technical assistance to develop the government’s capacity to
achieve its goal.
2
  Two related audit reports were issued in December 16, 2009, and April 4, 2010, respectively. See SIGAR Report
No. 10-2, Afghanistan’s High Office of Oversight Needs Significantly Strengthened Authority, Independence, and
Donor Support to Become an Effective Anti-Corruption Institution and SIGAR Report No. 10-8, Afghanistan’s Control
and Audit Office Requires Operational and Budgetary Independence, Enhanced Authority, and Focused
International Assistance to Effectively Prevent and Detect Corruption.


SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                                   Page 1
accordance with generally accepted government auditing standards and under the authority of Public
Law No. 110-181 and the Inspector General Act of 1978, as amended. A detailed discussion of our scope
and methodology is included in appendix I.


BACKGROUND

More than 30 years of conflict have weakened Afghan government institutions. The sheer size of
international security and reconstruction assistance during the last few years has increased
Afghanistan’s vulnerability to corruption, presenting a risk that could negate the efforts of the
international community and the Afghan government to establish the institutional basis for good
governance in Afghanistan. Transparency International’s Corruption Perception Index for 2009 ranked
Afghanistan 179th out of 180 countries, making it—by that standard—the second most corrupt country in
the world. 3

Afghanistan’s constitution stipulates that the government is responsible for “maintaining public law and
order and the elimination of administrative corruption.” 4 Afghan leaders have publicly expressed a
commitment to combat corruption within their country. For example, in February 2004 President Karzai
signed—and in August 2008 the Afghan Parliament ratified—the United Nations Convention against
Corruption, resulting in Afghanistan joining 139 other member states in a global fight against
corruption. 5 The Convention introduces a comprehensive set of standards, measures, and rules that all
countries can apply to strengthen their legal and regulatory regimes to fight corruption. It calls for
preventive measures and the criminalization of the most prevalent forms of corruption in both public
and private sectors. Further, the Convention made a major breakthrough by requiring member states to
return assets obtained through corruption to the country from which they were stolen.

The Afghan government’s anti-corruption commitments are elaborated in the Afghanistan National
Development Strategy (ANDS), both as part of its governance, rule of law, and human rights pillar, and
as a cross-cutting theme toward the achievement of national development objectives. According to the
ANDS, the Afghan government will focus on reducing administrative corruption, by increasing corruption
monitoring, introducing additional programs to further limit potential corruption risks, and
strengthening public complaints mechanisms. To help develop a national approach to fighting
corruption, a presidential commission, chaired by Afghanistan’s Chief Justice, prepared a strategy of
administrative reform and anti-corruption that evolved into a National Anti-Corruption Strategy. This
anti-corruption strategy was presented to President Karzai in 2008, after which he established the High
Office of Oversight (HOO) to oversee the implementation of the strategy. In the Declaration of the
International Conference in Support of Afghanistan held in Paris in June 2008, the Afghan government

3
 Transparency International’s Corruption Perceptions Index is based on 13 independent surveys given to countries
throughout the world, and indicates the perceived level of public-sector corruption in a country/territory.
However, not all surveys include all countries. The index’s stated confidence range indicates the reliability of the
scores, and that—allowing for a margin of error—we can be 90 percent confident that the true score for
Afghanistan lies within this range. According to the index, the most corrupt country in the world is Somalia.
4
    Article 75 of the Constitution of Afghanistan.
5
 According to the United Nations Office on Drugs and Crime’s website, Afghanistan became a signatory to the
Convention on February 20, 2004, followed by parliamentary ratification on August 25, 2008.




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                                      Page 2
“reaffirmed its commitment to intensify actions to combat corruption and to take concrete steps to that
effect.” This was followed by the London Conference in January 2010, during which President Karzai
committed to strengthening his government’s anti-corruption program by, among other things,
empowering the HOO by increasing its independence and strengthening its powers. The London
Conference was followed by a July 2010 conference in Kabul during which the Afghan government
pledged to, among other things, submit an audit law to ensure the strengthening and the independence
of the Control and Audit Office (CAO), Afghanistan’s supreme audit institution, which has audit authority
over state and donor funds.

Since 2002, the United States has appropriated more than $50 billion for reconstruction assistance in
Afghanistan. As part of that assistance, several U.S. agencies have designed significant programs or
activities to directly or indirectly help strengthen the anti-corruption capabilities of Afghan government
institutions.


A FINALIZED COMPREHENSIVE U.S. ANTI-CORRUPTION STRATEGY IS NEEDED TO HELP BUILD
THE CAPACITY OF AFGHAN OVERSIGHT INSTITUTIONS

Several U.S. agencies have implemented assistance programs that directly or indirectly help build the
capacity of the Afghan government to combat corruption. A multi-agency working group based at the
U.S. Embassy in Kabul has drafted a comprehensive anti-corruption strategy to provide guidance to
those agencies to help improve the transparency and accountability of Afghan institutions to reduce
corrupt practices and improve financial oversight, but the State Department has not yet approved the
strategy. Developing a more coordinated approach to build the capacity of Afghan oversight institutions
to fight corruption becomes increasingly important as the U.S. government plans to provide much of its
future reconstruction assistance to Afghanistan through the Afghan government. Nevertheless, the
draft U.S. anti-corruption strategy remains unapproved in Washington, D.C. Furthermore, U.S. agencies
have provided relatively little assistance to key Afghan oversight institutions.

Several U.S. Agencies Have Assistance Programs Designed to Directly or Indirectly Help the
Afghan Government Combat Corruption

Because corruption corrodes the Afghan government’s legitimacy and undermines international
development efforts, the U.S. government has made strengthening the Afghan government’s capability
to combat corruption a priority. Although few U.S.-funded reconstruction programs are specifically
designed to fight corruption in Afghanistan, a variety of programs contain significant anti-corruption
elements. Based on reviews of documentation and interviews with U.S. government personnel, SIGAR
has identified six U.S. departments or agencies with significant programs or activities designed to
directly or indirectly help strengthen the anti-corruption capabilities of Afghan government institutions.
These include the Departments of State, Treasury, Justice, Homeland Security, Defense, and USAID. In
addition, the United States contributes to three multi-donor trust funds that provide funding for
programs that support anti-corruption efforts in Afghanistan.

Among other things, the State Department, through its Bureau for International Narcotics and Law
Enforcement Affairs, focuses on strengthening the capacity of the Afghan Attorney General’s Office to
better monitor, investigate, prosecute and appeal corruption cases. The Treasury Department provides
technical assistance to help the Ministry of Finance improve its public financial management system and
build the Central Bank’s capacity to identify and seize assets from terrorist organizations, narcotics



SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                             Page 3
traffickers, and organized criminal groups. Justice Department efforts include assigning Assistant U.S.
Attorneys, as well as employees of the Federal Bureau of Investigation, the Drug Enforcement
Administration, and the U.S. Marshals Service, to train and mentor their Afghan counterparts. The
Department of Homeland Security has established an attaché office at the U.S. Embassy to help the
Afghan government develop its capacity to interdict, investigate, and prosecute individuals and
organizations involved in bulk cash smuggling. The Defense Department, through its U.S. Forces-
Afghanistan and Combined Security Transition Command-Afghanistan (CSTC-A), supports many of the
efforts described above. CSTC-A provides advisors and mentors to senior officials at the Ministries of
Interior and Defense, and also provides anti-corruption training to the Afghan National Police and
Afghan National Army. USAID’s efforts to combat corruption in Afghanistan are largely focused on core
governance and rule of law capacity development activities designed to strengthen transparency,
accountability, and effectiveness at the national and sub-national levels of government.

See appendix II for more details concerning these U.S. programs or activities in Afghanistan with
significant anti-corruption elements.

U.S. Government Lacks an Approved Comprehensive Anti-Corruption Strategy to Guide
Agency Efforts in Afghanistan

Since August 2009, U.S. agencies have developed a variety of plans and strategies that discuss
corruption issues in Afghanistan. Some of the recently developed plans and strategies include:

     •    The United States Government Integrated Civilian-Military Campaign Plan for Support to
          Afghanistan was issued in August 2009. This plan provides guidance from the U.S. Chief of
          Mission and the Commander of U.S. Forces-Afghanistan to U.S. personnel in Afghanistan. The
          plan represents the collaborative effort of all the U.S. government departments and agencies
          operating in Afghanistan and is based on close collaboration with the International Security
          Assistance Force and the United Nations Assistance Mission in Afghanistan to build effective
          civilian and military mechanisms for integrated assistance. To achieve its stated goal of helping
          the Afghan government obtain full responsibility for its own security and administration, the
          plan includes measures to ensure that U.S. assistance does not feed corruption or abuse of
          power in the Afghan government. Some of these measures include avoiding close association
          with corrupt officials and institutions and using leverage to change the behavior of those who
          seek personal gain over service to the Afghan people.
     •    In January 2010, the Department of State’s Special Representative for Afghanistan and Pakistan 6
          issued a Regional Stabilization Strategy for Afghanistan and Pakistan that included a key
          initiative to “reduce corruption by strengthening institutions that can provide checks on
          government power.” This was to be done by improving financial oversight, building judicial
          capacity to investigate, prosecuting and removing corrupt officials, and empowering the Afghan
          public to participate in transparent and accountable governance. The goals of this strategy were
          to strengthen Afghan institutions to provide checks on government power and to tackle visible
          corruption so that the Afghan people can see that change is happening.

6
  In January 2009, President Obama and Secretary of State Clinton designated Richard Holbrooke as a Special Representative
for Afghanistan and Pakistan (SRAP). In her remarks, Secretary Clinton said, “He will coordinate across the entire government
an effort to achieve United States’ strategic goals in the region. This effort will be closely coordinated, not only within the State
Department and, of course, with USAID, but also with the Defense Department and under the coordination of the National
Security Council.”



SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                                                      Page 4
In August 2009, a multi-agency anti-corruption working group based at the U.S. Embassy in Kabul, but
comprised of representatives from a number of U.S. agencies in Washington and Kabul, worked to
develop a comprehensive Anti-Corruption Strategy for Afghanistan. A draft strategy was approved by
the U.S. Ambassador to Afghanistan in October 2009. However, comments from Washington, D.C.,
resulted in changes. Subsequently, events relating to the Afghan national conference in December 2009
and the London Conference in January 2010 generated additional changes. The working group
substantially revised the draft strategy again in March 2010, and the U.S. Ambassador to Afghanistan
approved the revisions in April 2010. However, as of July 2010, the State Department in Washington
had not approved the draft.

The most recent draft of the strategy includes four pillars designed to work in concert with international
anti-corruption policies to help the Afghan government:

    •   Improve the transparency and accountability of its institutions to reduce corrupt practices
    •   Improve financial oversight
    •   Build judicial capacity to investigate, prosecute, punish, and remove corrupt officials from power
    •   Aid civil society organizations in educating and empowering the public to participate in
        transparent and accountable governance

Among other things, the draft strategy focuses on (1) leveraging diplomatic and assistance tools to
develop the political will to take fighting corruption seriously, (2) reforming civilian and military
procurement practices, (3) achieving significant reform and independence of the High Office of
Oversight, and (4) disclosing public information to highlight government anti-corruption actions and
provide Afghan citizens additional resources to participate in accountable, transparent governance.

The draft strategy also incorporates operating principles to help ensure that (1) the Afghan government
leads the effort to develop and implement its anti-corruption strategy, (2) assistance is linked to
improved governance using metrics agreed upon in advance with the Afghan government, and (3) U.S.
assistance is coordinated with a number of other donors, including the United Kingdom’s Department
for International Development, the United Nations Development Program, and the World Bank.

Further, the draft strategy provides guidance to help U.S. agencies improve accountability over
reconstruction funds and fight corruption in Afghanistan by specifically:

    •   Revoking U.S. visas of corrupt Afghan officials, their families, and their colleagues.
    •   Certifying Afghan ministries that are capable of directly receiving U.S. assistance funds.
    •   Auditing aid and development funds provided directly to the Afghan government.
    •   Making greater use of electronic fund transfers in place of cash payments in U.S. government
        development activities.
    •   Implementing measures to improve perceptions of U.S. government contracting, such as
        minimizing layers of subcontracting, creating more opportunities for Afghan organizations to
        receive direct grants, and comparing prices charged by contractors to market rates.
    •   Identifying and vigorously prosecuting any U.S. or contractor personnel involvement in corrupt
        practices, such as taking or giving of kick-backs in the contracting process.



SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                               Page 5
The Government Performance and Results Act of 1993 7and other best practices describe important
elements for implementing federal programs, such as leadership, agreed-upon standards, risk
assessment, and a planning process that takes into account requirements and stakeholders. Taking a
strategic approach to program implementation promotes transparency and helps ensure that a program
is based on a sound plan that can achieve results and reduce potential risks to U.S. investments.

Even though U.S. agencies have been heavily involved in Afghan reconstruction since 2002, the U.S.
government did not begin developing an anti-corruption strategy for Afghanistan until 2009. A draft
strategy was substantially completed by the end of 2009. However, as of July 2010, it had not yet been
approved by the State Department. Officials at the U.S. Embassy in Kabul cited interagency discussions
and modifications as reasons for the delay. As a result, more than $50 billion in U.S. assistance has been
provided for reconstruction in Afghanistan without the benefit of a comprehensive anti-corruption
strategy. Having a comprehensive anti-corruption strategy in place to guide agencies’ efforts becomes
increasingly important as the U.S. government plans to provide much of its future reconstruction
assistance to Afghanistan through the Afghan government.

U.S. Plans to Increase Direct Assistance through the Afghan Government

Since 2002, the United States has appropriated more than $50 billion for reconstruction assistance in
Afghanistan. In February 2010, an additional $20 billion was requested to help the Afghan government
build its capacity to defend itself and govern effectively. Whereas the vast majority of prior U.S.
reconstruction assistance bypassed the Afghan government by providing funds directly to contractors
and nongovernmental organizations, a new funding approach calls for channeling significantly more U.S.
assistance through the Afghan government.

During the January 2010 multi-donor conference in London to discuss development assistance to
Afghanistan, the United States, along with other members of the international donor community,
committed to increase the percentage of assistance delivered through the Afghan government to
50 percent over the next 2 years. This change was in response to concerns that donor assistance spent
outside the Afghan government system was less effective because it limited government ownership and
failed to build the institutional capacity of the government to manage and implement its development.
However, donors at the London conference indicated this increase in direct assistance would be
contingent on the Afghan government strengthening its public financial management systems,
improving its budget execution, and reducing corruption.


KEY AFGHAN OVERSIGHT INSTITUTIONS LACK ADEQUATE INDEPENDENCE, AUDIT AUTHORITY,
AND CAPACITY

In line with its publicly expressed commitments to combat corruption, the Afghan government has given
a number of ministerial-level departments and offices a direct role in combating corruption. In
particular, the HOO, the CAO, and internal audit departments of line ministries are key Afghan
government oversight institutions with significant anti-corruption responsibilities. 8 However, as
documented by SIGAR, USAID, and the World Bank, these institutions remain severely limited due to a
lack of independence, audit authority, and capacity.
7
    Public Law 103-62 (August 3, 1993).
8
    Additional information on these and other Afghan institutions is included in appendix III.




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                            Page 6
High Office of Oversight and Control and Audit Office

During a 2009 audit, SIGAR reported that the HOO suffered from serious shortcomings as an institution
both in its operational capacity and the legislative framework on which it was based. These
shortcomings seriously affected the HOO’s ability to effectively address its anti-corruption
responsibilities. Despite initial efforts that generated limited progress, the HOO faced great challenges
in building its capacity to fulfill its ambitious mandate. SIGAR concluded that development of the HOO’s
human and operational capacity needed to be coupled with substantial legislative reform to provide
“teeth” to the HOO’s mandate. Further, the audit found that the Afghan government had not invested
the HOO with the appropriate authority or support to make it an effective oversight institution. In
addition, SIGAR found that the HOO suffered from lack of qualified staff. Many of the HOO’s existing
staff members had limited language and computer skills, and lacked capacity in program monitoring and
evaluation, information gathering, and interviewing techniques. Although donor efforts to develop the
HOO had benefited the institution during its first year of operation, the international community—and
the U.S. government in particular—needed to improve coordination of assistance efforts and
demonstrate more focused commitment and a greater sense of urgency regarding the HOO’s success.

SIGAR’s 2010 audit of the CAO—Afghanistan’s Supreme Audit Institution with audit authority over all
state entities within the central and provincial governments, as well as public enterprises and
international donor funds—determined that, like the HOO, the CAO’s legislative framework was weak
and did not provide it with sufficient independence or authority to serve as an effective anti-corruption
institution. The CAO’s lack of independence interfered with its planning, reviewing, and reporting
processes. For example, the head of the CAO, Afghanistan’s Auditor General, stated that the CAO was
unwilling to take on audits that could be politically sensitive or that might be turned down by the Office
of the President. In addition, Afghan law did not provide the CAO with the authority to demand access
to necessary documents, officials, and premises or require audited entities to report on actions taken in
response to CAO recommendations. Further, it did not require the CAO to report to the National
Assembly or to publicly release its audit reports. Consequently, CAO’s reports often went
unimplemented and unenforced. Despite significant assistance from the international community—
almost exclusively from the World Bank—SIGAR found that the CAO continued to suffer from severe
internal capacity constraints, including a lack of qualified auditors. Even though the CAO had formally
adopted the standards of the International Organization of Supreme Audit Institutions, due to lack of
capacity, it had to rely on international advisors and contracted auditors to ensure that its audits
complied with those standards. Finally, unclear mandates resulted in conflicting responsibilities,
particularly with regard to Afghanistan’s Ministry of Finance. Many of the CAO’s existing staff members
had limited language and computer skills and lacked capacity in program monitoring and evaluation,
information gathering, and interviewing techniques. To conduct audits of donor funds in accordance
with international standards, the CAO depends on international advisors provided by the World Bank.

Internal Audit Departments of Afghan Ministries

Internal auditing is a necessary component of the Afghan government’s capacity to deter fraud and
corruption and safeguard Afghan and donor assets and is a basic requirement of an accountable
financial management system.

The Ministry of Finance is responsible for the management and execution of the Afghan national
budget, the major portion of which is financed by international donor assistance—including from the
United States. The internal audit department of the Ministry of Finance is an independent, objective



SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                             Page 7
assurance and consulting office designed to bring a systematic, disciplined approach to evaluating and
improving the effectiveness of the ministry’s risk management, control, and governance processes. A
2009 USAID assessment of the Ministry of Finance noted improvement in the capacity of its internal
audit department but indicated that it could further benefit from additional support to help build the
capacity of its staff. It recommended exploring the possibility of funding study tours, seminars,
workshops, scholarships, and other training opportunities. Another 2009 USAID assessment stated that
a corruption prevention agenda for the health and education sectors in Afghanistan needed to include
the development of complaints intake and internal audit capacities to more systematically identify
instances and areas of corruption. The same assessment noted that assistance for developing internal
auditing skills had helped improve central government operations but that little of this effort had
reached governing bodies below the national level that are responsible for managing and executing local
budgets.

A 2008 World Bank assessment of Afghanistan’s public financial management performance gave the
Afghan government’s internal audit function a low rating, particularly within the line ministries. 9
According to the assessment, the capacity for internal audit in Afghan line ministries was weak. Their
work did not meet any recognized professional standard, and there was little follow-up of audit
recommendations. The World Bank recommended that formal academic and professional training in
auditing should be made available for internal audit staff of line ministries. Further, it indicated that
most internal audit manuals were outdated and needed to be revised based on modern internal audit
practices that take into account the country’s current context. In addition, USAID’s Economic Growth
and Governance Initiative directly links Afghanistan’s weak audit capacity with governmental corruption.

U.S. Government Has Provided Limited Assistance to Key Afghan Oversight Institutions

Despite the important role Afghan oversight institutions have in combating corruption in Afghanistan
and providing accountability over U.S. reconstruction funds, only a relatively small percentage of U.S.
funding has been employed to help build the capacity of these institutions. SIGAR audits of U.S. efforts
to help strengthen the HOO and the CAO found that less than $1.2 million in U.S. assistance had been
provided to those two key Afghan oversight institutions prior to 2010. In comparison, donors from the
international community had committed to provide more than $20 million in assistance to those same
institutions.

U.S. assistance for the HOO has been provided principally through USAID. USAID has budgeted more
than $1 million through October 2009 to assist the HOO with start-up costs, computer support, training,
equipment, media projects, and advisors. The international donor community, on the other hand, has
demonstrated a more significant interest in and commitment to the HOO. The United Nations
Development Program has committed $7.3 million over 3 years for HOO support through its
Accountability and Transparency project, 10 which provides the HOO with advisors, security, and rent for
office space and vehicles.




9
    World Bank’s “Afghanistan Public Financial Management Performance Assessment,” dated May 2008.

10
  UNDP’s Accountability and Transparency project is supported by contributions from the United Kingdom,
Norway, and Italy.




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                                   Page 8
USAID is the only U.S. agency that has provided direct assistance to the CAO. However, USAID’s
assistance to the CAO has totaled only $112,472 from November 2007 to January 2010, and was used
primarily to fund conference and training attendance for a limited number of CAO staff. In contrast, the
World Bank and UNDP have collectively provided the CAO with more than $13.5 million in assistance
since 2004.

One reason for such minimal assistance from the United States, as explained above, is due to the lack of
independence of these key oversight institutions. For example, a 2009 USAID-funded assessment of
corruption in Afghanistan stated that the lack of independence of the CAO was a factor in donors
choosing not to provide the level of support needed to fully professionalize CAO operations. Further,
the draft U.S. anti-corruption strategy indicates that U.S. agencies should consider assisting the CAO’s
external audit capacities only if it becomes independent. Another contributing factor may have been
that corruption in Afghanistan was not always a focused concern. For example, the HOO Deputy
Director General indicated that anti-corruption was not a big issue prior to 2009 and that there was no
clear U.S. government strategy for addressing anti-corruption. With increased attention given to
corruption in Afghanistan by world leaders and the media, there has been more of a focus on the HOO,
and its role in fighting corruption, within the U.S. Embassy community in Kabul.

In response to SIGAR’s findings and recommendations regarding the HOO and the CAO, the U.S.
government has agreed to address the issues identified in the two audit reports. USAID has indicated
that it plans to provide up to $30 million over 3 years to support the HOO and the U.S. Embassy plans to
work with the CAO, Afghan government stakeholders, and international donors to formulate and
implement a capacity development plan for the CAO. While these are positive steps that should help
strengthen the capabilities of the HOO and the CAO, there are indications that other key Afghan
oversight institutions—particularly the internal audit departments of Afghan government ministries—
suffer from some of the same challenges.


CONCLUSION

Since 2002, the United States has appropriated more than $50 billion for reconstruction assistance in
Afghanistan and the Obama administration has recently submitted budget requests for an additional
$20 billion to help the Afghan government build its capacity to defend itself and govern effectively.
Whereas the majority of prior U.S. assistance bypassed the Afghan government by providing funds
directly to contractors and nongovernmental organizations, the new approach calls for significantly
more U.S. assistance to be channeled through the Afghan government. However, the success of this
approach will depend to a large degree on the capacity of the Afghan government to manage U.S.
reconstruction funds and protect them from waste, fraud, abuse, and other forms of corruption.
Because corruption, widely acknowledged to be a pervasive, systemic problem across Afghanistan,
corrodes the Afghan government’s legitimacy and undermines international development efforts, the
United States has made strengthening the Afghan government’s capability to combat corruption a
priority. However, the majority of U.S. reconstruction assistance to Afghanistan has been provided
without the benefit of an approved comprehensive U.S. anti-corruption strategy.

The Afghan government has given a number of ministerial-level departments and offices a direct role in
combating corruption. In particular, the HOO, the CAO, and internal audit departments of ministries are
key Afghan government oversight institutions with significant anti-corruption responsibilities. However,
these institutions remain severely limited due, in part, to the lack of political will on the part of the



SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                            Page 9
Afghan government, and to the lack of independence, audit authority, and capacity. Despite the
important role Afghan oversight institutions have in combating corruption in Afghanistan and providing
accountability over U.S. reconstruction funds, only a relatively small percentage of U.S. funding has been
employed to help build the capacity of these institutions. However, in line with recommendations from
prior SIGAR audits, USAID is currently in the procurement stage of a plan to increase assistance to the
HOO and is developing a plan to increase assistance to the CAO. In addition, although SIGAR has not
conducted extensive audit work on the internal audit departments of Afghan ministries, we believe that
they are key Afghan government oversight institutions that could play a critical role in combating
corruption and protecting U.S. and other donor funds from waste, fraud, and abuse. Consequently, the
U.S. government would benefit from helping to ensure the capacity of those institutions as well.


RECOMMENDATIONS

To improve and direct U.S. anti-corruption efforts in Afghanistan and to help strengthen the capacity of
Afghan government institutions to combat corruption and protect U.S. and other donor funds from
waste, fraud, and abuse, SIGAR recommends that the U.S. Secretary of State:

    1. Approve and implement the draft comprehensive U.S. anti-corruption strategy for
       reconstruction efforts in Afghanistan.
    2. Review key Afghan oversight institutions, particularly the internal audit departments of Afghan
       line ministries, to determine whether the United States should provide them more assistance to
       strengthen their ability to combat corruption in Afghanistan and provide accountability over U.S.
       reconstruction funds channeled through the Afghan government.


COMMENTS

The U.S. Embassy in Kabul and USAID/Afghanistan provided joint comments on a draft of this report.
The comments are included in appendix V. In their comments, the Charge d’ Affaires, Coordinating
Director for Rule of Law and Law Enforcement, Coordinating Director for Development and Economic
Affairs, and USAID Mission Director indicated concurrence with and support for the report’s
recommendations. The comments outlined actions to address the report’s recommendations, including:

    •   Finalization of a comprehensive U.S. anti-corruption strategy in Afghanistan during the current
        calendar quarter; and
    •   Development of a formal assessment process for Afghan line ministries and other governmental
        institutions.

The U.S. Embassy and USAID noted that the draft strategy had been approved by the U.S. Ambassador
to Afghanistan on April 10, 2010, and sent to Washington, D.C., where it is awaiting approval of the
Special Representative for Afghanistan and Pakistan. The comments further indicated that the U.S.
Mission in Afghanistan anticipated that the strategy would be finalized by September 30, 2010, and that
implementation of the draft strategy was already underway.

The U.S. Embassy and USAID also indicated support, in principle, for our recommendation to review key
Afghan oversight institutions to determine whether to provide additional assistance to strengthen their
ability to combat corruption and increase accountability for donor funds. The comments indicated that


SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                           Page 10
USAID had already extended technical assistance to the CAO and announced a program to provide
grants to promote Afghan civil society institutions. Further, the comments stated that USAID, in
conjunction with the Department of State and other agencies, was developing a formal process to assess
Afghan line ministries and other governmental institutions. However, the comments also noted that
providing support to the internal audit departments of Afghan line ministries was problematic due to
the unclear nature of internal audit responsibilities under current Afghan law. According to the
comments, the U.S. government included resolution of this issue as a benchmark under the Afghanistan
Reconstruction Trust Fund Incentive Program. The U.S. Treasury Department is also engaged with the
Afghan government to help resolve this issue.

In the comments, it was noted that SIGAR recommended that the U.S. government should invest in
technical assistance for internal audit. As a point of clarification, SIGAR actually recommended that the
review of Afghan oversight institutions should include the internal audit departments of Afghan line
ministries to determine if more assistance was warranted to strengthen their ability to combat
corruption and ensure accountability for U.S. reconstruction funds channeled through the Afghan
government.

The U.S. Embassy in Afghanistan, along with USAID and the Departments of Justice, Homeland Security,
and Defense, also provided technical comments to the draft report, which have been incorporated, as
appropriate, into the final report. Comments by CENTCOM, USFOR-A, and CSTC-A, although technical in
nature, have been included as appendix VI of this report.




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                           Page 11
APPENDIX I: SCOPE AND METHODOLOGY

This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s review of U.S. and other donor efforts to strengthen the anti-corruption capabilities of
the Afghan government.

To review U.S.-funded programs designed to strengthen the capabilities of Afghan institutions to help
reduce corruption in Afghanistan, we reviewed documentation from and conducted interviews with
responsible officials from the U.S. Departments of State, Defense, Treasury, and Justice, and the U.S.
Agency for International Development (USAID) in Washington, D.C., and Kabul, Afghanistan. Within
those departments, we also held discussions with Department of State’s Bureau of International
Narcotics and Law Enforcement Affairs, Special Representative for Afghanistan and Pakistan, and the
U.S. Embassy-Kabul; Department of Justice’s Federal Bureau of Investigation and U.S. Marshals Service;
and Department of Defense’s U.S. Forces-Afghanistan and Combined Security Transition Command-
Afghanistan. We also obtained information from the Department of Homeland Security. A particularly
useful source of information was a March 2009 report from a USAID-funded assessment of corruption in
Afghanistan. To help assess the effectiveness of U.S. anti-corruption efforts from the Afghan point of
view, we spoke with officials from the Ministry of Finance, the Ministry of Interior, the High Office of
Oversight, and the Control and Audit Office.

To identify Afghan government institutions with significant anti-corruption responsibilities, we reviewed
documentation from and conducted interviews with responsible officials from the U.S. Departments of
State, Defense, Treasury, and Justice, and USAID in Washington, D.C., and Kabul, Afghanistan. We also
reviewed documentation from and interviewed officials with the World Bank, United Nations
Development Program, and United Nations Office on Drugs and Crime. To gain an understanding of
anti-corruption efforts from the Afghan point of view, we spoke with officials from the Ministry of
Finance, the Ministry of Interior, the High Office of Oversight, and the Control and Audit Office. We also
reviewed documentation relating to the United Nations Convention against Corruption, the Asia
Development Bank, and the Afghanistan National Development Strategy.

This report is part of a series of audits conducted by SIGAR to assess what the United States is doing to
help build the capacity of Afghan institutions to prevent corruption and strengthen the rule of law within
Afghanistan. We conducted our work in Kabul, Afghanistan, and Washington, D.C., from August 2009 to
July 2010 in accordance with generally accepted government auditing standards. These standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. The performance audit was conducted by SIGAR under the authority of Public Law No.
110-181, and the Inspector General Act of 1978, as amended.




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                            Page 12
APPENDIX II: U.S. AGENCIES AND MULTILATERAL TRUST FUNDS WITH ANTI-CORRUPTION
PROGRAMS AND ACTIVITIES IN AFGHANISTAN

U.S. Department of State - U.S. Embassy-Kabul

    •   Support for Central Ministries – The Economic Section of the Embassy supports anti-corruption
        efforts on a policy level with central ministries in Kabul. For example, this section encourages
        Afghan compliance with an International Monetary Fund program to reduce customs revenue
        leakage and supports efforts to strengthen banking supervision.
    •   Support for Ministry of Interior – The Political and Political-military Sections of the Embassy
        support anti-corruption efforts at the policy level in many of their relationships with Afghan
        ministries and Parliament. For example, they have worked with other donors and the Ministry of
        the Interior to identify senior officials in the Ministry who were judged to be corrupt. A number
        of those officials have since been removed from their positions.
    •   Justice Sector Support Program – The Bureau for International Narcotics and Law Enforcement
        Affairs (INL) strengthens the capacity of the Attorney General’s Office to monitor, investigate,
        prosecute, and appeal cases of corruption more efficiently, effectively, and fairly. To this end,
        the Bureau, with support from other U.S. and international law enforcement entities, is creating
        and will continually train and mentor an Anti-Corruption Unit within the Attorney General’s
        Office to consist of a specialized core of vetted prosecutors (and supporting staff) to investigate
        and bring to trial high-level cases of corruption. This unit will be based at the Major Crimes Task
        Force and has received funding from the Bureau.

U.S. Department of Treasury

    •   Support for Ministry of Finance – The U.S. Department of Treasury has worked with the Ministry
        of Finance to improve the promulgation and enforcement of government regulation. Several
        International Monetary Fund program commitments and prior actions to increase revenue –
        such as the collection of taxes from the state airline and the audit of the state fuel importer –
        touch directly on the uniform application of law. Treasury provides technical assistance in
        support of Afghanistan’s public financial management reform efforts to help develop an
        efficient and effective public financial management system and increase the capacity of the
        Ministry of Finance to ensure better and more transparent management of public finances.
    •   Support for the Central Bank – Treasury also supports efforts to combat illicit financial activity in
        Afghanistan by providing technical assistance to Afghanistan’s Central Bank to build capacity in
        anti-money laundering and terrorist financing, supervise the formal and informal financial
        sectors, and develop the capacity of financial intelligence analysts, financial crime investigators,
        and prosecutors to identify, investigate, prosecute, and seize assets from terrorist organizations,
        narcotics traffickers, and organized criminal groups.

U.S. Department of Justice

    •   Justice Sector Support Program – The Department of Justice contributes to this program by
        vetting and training prosecutors and supporting staff for the Anti-Corruption Unit within the
        Afghanistan Attorney General’s Office. Two Assistant U.S. Attorneys were assigned to help




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                              Page 13
        establish the Anti-Corruption Unit, and three more are expected to assist the unit by the end of
        2010.
    •   Criminal Justice Narcotics Task Force – The Department of Justice also has two Assistant U.S.
        Attorneys in Afghanistan to help mentor the Criminal Justice Narcotics Task Force, which has
        nationwide jurisdiction over major narcotics cases, including drug-related corruption cases.
        Three more Assistant U.S. Attorneys are expected to assist the Task Force by the end of 2010.
    •   Criminal Law Working Group – The Department of Justice attorneys in Afghanistan also work
        with the international community’s Criminal Law Working Group, which is currently working on
        amendments to the Criminal Procedure Code, including ways to streamline the investigation and
        prosecution of corruption.

Federal Bureau of Investigation

    •   Major Crimes Task Force – The Federal Bureau of Investigation vets, mentors, and provides
        training for the task force’s Corruption Investigation Unit (a joint initiative between the Ministry
        of Interior and National Directorate Service). The mission of the unit is to conduct corruption
        investigations of high-level Afghan government officials and then feed cases to the prosecutors
        at the Anti-Corruption Unit within the Afghanistan Attorney General’s Office.

U.S. Marshals Service

    •   Afghan Judicial Security Unit – The U.S. Marshals Service, with funding support from INL, has
        provided guidance, training, and equipment to the Afghan Judicial Security Unit and assisted
        them in their transition to a new location adjacent to the U.S.-funded $11 million Counter
        Narcotics Justice Center, which now houses the Central Narcotics Tribunal and the investigators
        and prosecutors of the Counter-Narcotics Justice Task Force. Specifically, the U.S. Marshals
        Service has trained officers of the Judicial Security Unit in personal security details and executive
        protection. In addition, the U.S. Marshals Service has convinced the Ministry of the Interior to
        increase number of Judicial Security Unit officers and is in the process of conducting a more
        comprehensive assessment of a variety of courts throughout Afghanistan.

Drug Enforcement Administration

    •   Counter-Narcotics Police of Afghanistan – The Drug Enforcement Administration (DEA) mentors
        a variety of vetted units within the Counter-Narcotics Police of Afghanistan that conduct
        significant drug trafficking and drug trafficking-related corruption investigations. DEA also plays
        a significant role in the Afghan Threat Finance Cell and conducts a variety of counter-drug
        operations with the U.S. military and the Afghan National Security Forces.

U.S. Department of Homeland Security

The Department of Homeland Security recently established an Immigration and Customs Enforcement
attaché office at the U.S. Embassy in Kabul to help the Afghan government interdict, investigate, and
prosecute individuals and organizations involved in bulk cash smuggling. To help combat the problem of
corruption as it relates to U.S. donor assistance funds and the smuggling of bulk currency out of
Afghanistan, the Department of Homeland Security is proposing a currency tracking program to trace
the source of exported funds and exploit the intelligence gained through U.S. and Afghan partners.
Special agents will partner with the Ministry of Interior, Central Bank authorities, and the Customs


SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                              Page 14
Department under the Ministry of Finance to coordinate this financial tracking, recording, and
exploitation initiative. The special agents will mentor Afghan partners through enforcement actions
occurring, initially at the Kabul International Airport, and later expanding to other airports and border
crossing points.

U.S. Department of Defense

U.S. Forces-Afghanistan (USFOR-A)

USFOR-A, in coordination with the U.S. Embassy-Kabul, provides support for the following efforts:

    •   Finance Sector – developing the concept of a Joint Illicit Finance Task Force in Kabul to integrate
        counternarcotics and counter-threat finance activities enabling strategic analysis, assessments,
        and case packaging, to address the linked issues of illicit financing, money laundering, and
        government corruption.
    •   Major Crimes Task Force – establishing a U.S./Afghan Corruption Investigation Unit within the
        Afghan Major Crimes Task Force.
    •   Attorney General’s Office – supporting the Afghanistan Attorney General’s Anti-Corruption
        Investigative Unit.
    •   Justice Sector – assisting the Afghan corrections sector, including efforts to build capacity within
        the justice infrastructure, to strengthen the court systems, to expand and enhance legal
        education, and to mentor members of the Counternarcotics Justice Task Force.
    •   Provincial Reconstruction Teams – sponsoring joint civil-military training for provincial
        reconstruction teams and ensuring that new civilians are trained on, and have access to, U.S.
        government provincial and district support plans for their areas.

In addition, U.S. Forces-Afghanistan has launched the following task forces in response to corruption
issues:

    •   Task Force Spotlight – Launched in June 2010, this task force’s initial focus is to enforce
        compliance of U.S.-contracted private security companies operating in Afghanistan with existing
        requirements involving individual arming authority, biometric registration, and serious incident
        reporting. The task force also plans to evaluate policy, help develop more effective contracting
        procedures, and continue to assist Ministry of Interior efforts to improve regulation of private
        security companies.
    •   Task Force 2010 – Already underway, this task force is projected to be fully operational in
        August 2010. It plans to bring together an international civilian and military team to develop
        greater visibility on select sub-contracts. The task force focuses on four core competencies,
        including intelligence, contracting, forensic auditing, and criminal investigation.

Combined Security Transition Command-Afghanistan (CSTC-A)

CSTC-A focuses on the development of ministerial systems and enduring institutions. Specifically, the
Command seeks to develop systems within the Ministries of Interior and Defense to deter, identify, and
prevent corruption. The desired outcome is a legitimate Afghan National Police and Afghan National




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                             Page 15
Army that are based on accountability, transparency, rules and standards, compliance, and
enforcement.

CSTC-A provides advisors and mentors to senior officials in support of the ministerial development and
institutional training mission at the Ministries of Interior and Defense, respectively. Furthermore, the
Command recently increased the number of advisors to each ministry’s Inspector General, procurement,
and finance department. These additional advisors will assist their Afghan counterparts in establishing
internal controls and oversight that will provide reasonable assurance that programs are executed
according to applicable laws and regulations.

The Command supports rule of law initiatives and anti-corruption plans that are required by Afghan
Presidential Decree for submission to the High Office of Oversight. The Ministry of Defense recently
approved the plan for the Afghan National Army and the Ministry of Interior’s plan for the Afghan
National Police is pending signature. CSTC-A supports these plans through the following initiatives:

    •   Anti-corruption training - The Command’s anti-corruption training program currently trains a
        significant portion of the Afghan National Security Force (ANSF) and is completing plans that will
        reach the entire force. The Ministry of Interior is in the process of instituting a code of conduct
        that will apply to all Afghan National Police and will be incorporated into their training.
    •   Electronic funds transfer for ANSF salary payments – The Command worked with the ministries
        and national banks to shift from paying salaries in cash to an electronic funds transfer system.
        Ninety-five percent of the Afghan National Army is currently enrolled in this system and
        77 percent of the Afghan National Police are enrolled. Further, the Command is testing a cell
        phone payment system in remote areas that lack banking services.
    •   Support to the Major Crimes Task Force – The Command has provided $17.9 million in
        operational support for the task force.
    •   Personnel asset inventory – The Command initiated a personnel inventory across the entire
        Afghan National Police to specifically identify police personnel throughout Afghanistan. This will
        help deter the collection of ghost salaries and excess funds for food and equipment. The first
        phase will collect the data on-site throughout the country and is 90 percent complete. Phase II
        will begin the analysis of actual data.
    •   Lottery appointments – The Command has encouraged the use of a lottery system for personnel
        assignments in the Afghan National Army. A lottery system encourages transparency and
        prevents personal connections from influencing decisions on a soldier’s assignment. This
        process has been used very successfully with recent graduates from the National Military
        Academy of Afghanistan and Medical Officer Basic Course.
    •   Afghan First – The Command has aggressively pursued procurement of goods produced within
        Afghanistan. Purchasing goods directly from Afghan manufacturers reduces corruption that
        occurs through middlemen in the contracting stream and the corruption associated with cross
        border transport of goods. For example, CSTC-A deals directly with several Afghan boot
        manufacturers for purchase of boots for ANSF and is considering adding other appropriate
        products to the Afghan First program.
    •   Anti-corruption directive to advisers – The CSTC-A Commanding General requires that all
        advisers receive anti-corruption training as part of their general advisor training. It is the duty of
        all CSTC-A personnel to report ANSF misconduct and criminal acts through their chain of



SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                               Page 16
        command. These reports are reviewed at the highest levels within the Command and are acted
        upon accordingly.

U.S. Agency for International Development (USAID)

USAID’s efforts to combat corruption in Afghanistan are largely focused on core governance and rule of
law capacity development activities designed to strengthen transparency, accountability, and
effectiveness at the national and sub-national levels of government.

    •   Strategic Support to Islamic Republic of Afghanistan Program – Through this program, USAID has
        provided critical start-up assistance to the High Office of Oversight. USAID has assisted with
        salaries for senior staff and funding for information technology systems, as well as support for
        training and outreach.
    •   Afghan Civil Service Support – This program supports an Afghan-led effort to increase the
        effectiveness of ministries by reforming internal operational systems and instituting best
        practices and common Afghan standards. The objectives of this program are to (1) raise the skill
        levels of Afghan civil servants; (2) modernize, institutionalize, and harmonize administrative
        systems across ministries; and, (3) institutionalize a system for civil service training within the
        Afghan government.
    •   Office of the President/Support for the Center of Government – This assistance program
        (provided through a grant to the Afghan government and a cooperative agreement with the Asia
        Foundation) that has supported basic public administration capacity development, including
        financial management, human resources management, information technology, strategic
        communications, and other critical capacity development.
    •   Afghanistan Rule of Law Program – This program addresses the judicial system and has provided
        training for more than 1,000 judges, supported the development of systems for case
        management, tracking, and open information for courts. It also worked to develop a code of
        ethics for judges.
    •   Justice Sector Development Program – This new program is designed to build upon the
        Afghanistan Rule of Law Program to assist the Supreme Court’s ability to monitor and discipline
        judges, collect statistics on case flow, and make them publicly available. It will also design and
        implement a mechanism for enforcing the Judicial Code of Conduct.

The following are additional anti-corruption activities that USAID has recently initiated or plans to
initiate in the near future:

    •   Helped the Afghan government, Afghanistan’s High Office of Oversight (HOO) and others, to
        develop a strong anti-corruption policy, as presented by the Afghan government at the January
        2010 London Conference.
    •   Helped the Afghan government draft a Presidential Decree, signed by President Karzai on
        March 18, 2010, that provides significantly expanded investigative powers to the HOO; makes
        illegal political interference and obstruction of justice; provides the HOO with seconded judicial
        police; makes false personal asset declarations punishable administratively and criminally;
        requires the Ministry of Justice to review all laws and sanctions related to anti-corruption to
        make sure they exist and are appropriate to the crime; and requires the HOO to put in place
        within 90 days of signature an Anti-corruption Monitoring and Evaluation Committee of


SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                             Page 17
        prominent Afghans and international experts, to track the government's progress in the fight
        against corruption, as well as international assistance, and its impact on corruption.
    •   Assists the HOO in drafting an Executive Order that will require each ministry or agency of the
        Afghan government to prepare an anticorruption action plan with its top three priorities, which
        the HOO will be responsible for monitoring.
    •   Prepared draft terms of reference for the Anti-corruption Monitoring and Evaluation Committee.
        Initially approved by the HOO, they are being circulated for comment in the international
        community. USAID also drew up a list of potential international membership for the HOO's
        selection.
    •   Developed a new program of assistance for the HOO, consisting of up to $30 million over 3 years,
        which is in the process of being placed into operation. The project team, which USAID expects
        to be operational in August 2010, will support the HOO in carrying out its expanded mandate.
    •   Conducted discussions for providing assistance to the Control and Audit Office (CAO) through
        USAID’s "Economic Governance and Growth Initiative," and is planning for the Bureau of
        Supreme Audit in Iraq to visit Afghanistan in the near future to discuss the challenges of
        establishing a supreme audit institution in a conflict environment.
    •   Established a joint committee with U.S. Forces-Afghanistan and International Security Assistance
        Force on Contractor Vetting for Corruption. The first meeting was held April 17, 2010. The
        committee’s purpose is to arrive at a common system, with a common set of data, to vet
        international and Afghan prime- and subcontractors, to the extent possible, for their possible
        engagement in corrupt practices. The goal is to have the majority of U.S. government
        contractual spending in Afghanistan covered by this new system.
    •   Preparing guidance to all civilians at Provincial Reconstruction Teams on "10 Things You Can Do
        to Fight Corruption." This will be linked to the corruption guidance initiative of the Department
        of State.

U.S. Participation in Multilateral Trust Funds

    •   The Afghanistan Reconstruction Trust Fund is a partnership between the international
        community and the Afghan government for the improved effectiveness of the reconstruction
        effort. Since 2002, 30 donors have contributed more than $3 billion, making ARTF the largest
        contributor to the Afghan budget—for both operating costs and development programs. ARTF’s
        support for national priority programs, for operating costs of government operations, and for
        the policy reform agenda is contributing to the achievement of the Afghanistan National
        Development Strategy goals, which include the promotion of transparency and accountability of
        reconstruction assistance. The United States has contributed more than $400 million to this
        trust fund from 2002 through 2009.
    •   The Law and Order Trust Fund for Afghanistan was established by the United Nations
        Development Program to provide a mechanism for coordinating contributions from donors with
        the principle priority to cover police salaries and pursue other activities in accordance with
        project priorities. Specific areas for collaboration with anti-corruption projects such as the
        UNDP’s Accountability and Transparency project have been identified. Further, the trust fund is
        planning to establish eight regional offices to monitor donor contributions to the Afghan
        National Police by provincial audit inspection teams. The United States is the single largest



SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                           Page 18
        contributor, having committed $207 million since April 2008. The trust fund is nationally
        managed through the Ministry of Interior and is governed by UNDP’s financial rules and
        regulations.
    •   The Counter-Narcotics Trust Fund, established in October 2005, is a multi-donor funding source
        that contributes to fulfilling objectives of the Afghan government’s National Drug Control
        Strategy—one of six cross-cutting issues cited in the Afghanistan National Development Strategy.
        The key principles behind the trust fund are to provide additional resources for the Afghan
        government’s counter-narcotics efforts through the national development budget, thus
        enabling the Afghan government to have greater ownership over implementation of its counter-
        narcotics strategy. The United States has committed $15.1 million to the fund, the vast majority
        of which funded the Good Performers Initiative to support provinces that achieve sustained
        progress toward poppy elimination or remain poppy free by providing them financial resources
        to fund their priority development projects.




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                             Page 19
APPENDIX III: AFGHAN GOVERNMENT INSTITUTIONS WITH SIGNIFICANT ANTI-CORRUPTION
RESPONSIBILITIES

High Office for Oversight

The High Office of Oversight (HOO) was created by Presidential Decree in July 2008 to oversee and
coordinate the implementation of both the National Anti-Corruption Strategy and administrative
procedural reform. The HOO has not been invested with investigative or prosecutorial powers, but is
empowered to monitor the progress of legal cases related to corruption in the appropriate law
enforcement agencies and to ensure that action is being taken by those institutions. HOO leadership
consists of a Director General who is appointed by the President. The HOO has established internal
units with distinct but interrelated functions related to oversight, administrative reform, capacity
development, and public awareness.

Control and Audit Office

The Control and Audit Office (CAO) is responsible for auditing the financial matters of the Afghan
government and is also mandated to identify deficiencies and inadequacies in public administration.
The CAO ensures the implementation of systems and procedures and provides standards to the internal
inspection and audit departments of ministries and agencies. The CAO can also make recommendations
to improve laws and procedures. The Office provides external audits as “appropriate” to government
clients; to date, these have been limited. The CAO and the Internal Audit Department in the Ministry of
Finance have an ongoing disagreement over which agency has authority to oversee audits in ministries
and departments, as authorized by the Public Financial Management Law, which provides for the
establishment of internal auditors in each ministry.

Anti-Corruption Unit of the Attorney General’s Office

The Anti-Corruption Unit is a specialized prosecution unit of the Attorney General’s Office. The Unit has
prosecutors specializing in corruption investigations, primary court, appellate court, and the Supreme
Court. All unit prosecutors are under the same director, who reports to the Attorney General. This
vertical structure should reduce potential interference from other units and help guard against
information leaks. The unit is connected with the Major Crimes Task Force, which is expected to provide
significant case referrals.

Major Crimes Task Force

The Major Crimes Task Force is a partnership through which U.S. and international law enforcement
agencies mentor Afghan counterparts by providing investigative and legal assistance. Afghanistan’s
Minister of the Interior has indicated that he foresees the Major Crimes Task Force to be the prototype
organization for the Afghan version of the U.S. Federal Bureau of Investigation. The task force includes a
Corruption Investigation Unit whose mission is to conduct corruption investigations of high-level Afghan
government officials. Although a new facility for the task force was inaugurated in February 2010, the
task force had already achieved its first high-profile corruption arrest in October 2009.




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                           Page 20
Anti-Corruption Tribunal

The Afghan Ministry of Justice has established the Anti-Corruption Tribunal to handle significant
corruption cases, including cases from the provinces. By January 2010, the Afghan government had
appointed 11 justices to this new body, which was designed to combat abuse of power, while also
encouraging and supporting Afghan efforts to remove and prosecute corrupt officials.

Central Narcotics Tribunal

The Central Narcotics Tribunal has exclusive nationwide jurisdiction over significant narcotics cases
(i.e., cases involving more than 2 kilograms of heroin, morphine, or cocaine; more than 10 kilograms of
opium; and more than 50 kilograms of hashish or precursors chemicals.) The Tribunal is housed in the
$11 million U.S.-funded Counter-Narcotics Justice Center.

Ministry of Finance’s Internal Audit Department

The Internal Audit Department of the Ministry of Finance is an independent, objective assurance and
consulting activity designed to improve Ministry of Finance operations. It helps the ministry to
accomplish its objectives by bringing a systematic, disciplined approach to evaluate and improve the
effectiveness of risk management, control, and governance processes.

Afghan National Police

The Afghan National Police is responsible for the initial “discovery” of crimes, such as corruption. After
any unit of the police starts a case, the Criminal Investigation Department may investigate the case up to
3 days after it is initiated, determining whether to refer the case to the Attorney General’s Office for
possible prosecution.

National Directorate of Security

The National Directorate of Security has the mandate of countering organized crime, which can include
corruption. For corruption cases, the directorate is confined to gathering information and making
referrals to the Attorney General’s Office, HOO, and the Police. Allegations involving high-level Afghan
officials are then submitted to the President who decides on any further action.

Independent Administrative Reform and Civil Service Commission

The Independent Administrative Reform and Civil Service Commission is responsible for human
resources across the Afghan government. It has established human resource management systems,
policies, and processes for the civil service, and is managing reforms to provide salary upgrades based
on job descriptions and performance for selected civil service positions. The commission has also
developed merit-based recruiting and promotion systems and procedures, which it is rolling out to the
provincial level. These apply to all civil service positions in line ministries as well as the sub-national
government. The commission has established an ambitious goal of training 16,000 civil servants, most
of which work in provincial and district centers.




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                              Page 21
High-Level Anti-Corruption Commission

The High-Level Anti-Corruption Commission, chaired by President Karzai, provides guidance and
oversight to the HOO through monthly meetings to push ministries and departments into building anti-
corruption capacity, integrate actions across the government, and prosecute corrupt actions.
Commission members include the Second Vice President, Chief Justice, Minister of Interior, Minister of
Justice, Attorney General, National Security Advisor, Director General of the Administrative Affairs and
Cabinet Secretariat, General Director of the Department of National Security, Chair of the Independent
Administrative Reform and Civil Service Commission, Director General of the Independent Department
for Local Governance, as well as the General Director and Deputy General Director of the HOO.

Afghanistan Independent Human Rights Commission

The Afghanistan Independent Human Rights Commission focuses on the social and economic rights of
Afghan citizens, but may also receive corruption complaints. Corruption falls under the commission’s
mandate since it, by definition, violates human rights. The commission is not authorized to investigate
complaints that relate to corruption, but may compile the information and forward it to the Attorney
General’s Office for investigation.

Parliamentary Commission on Judicial and Justice Affairs, Administrative Reform, and Anti-
corruption

The Parliamentary Commission on Judicial and Justice Affairs, Administrative Reform and Anti-
Corruption is charged with overseeing anti-corruption agencies and efforts and has the duty of
proposing laws to combat corruption. According to a USAID-funded assessment, the commission meets
irregularly, does not have a focused agenda, and is minimally effective.

Independent Electoral Commission

Afghanistan plans to hold a series of elections to select members of Parliament, governors, mayors,
district heads, and provincial councils. These elections will be managed by the Independent Electoral
Commission, which is responsible for doing so in a transparent and accountable way.

Internal Audit Departments of Line Ministries

Several Afghan line ministries have operating internal audit departments. However, according to a
recent World Bank assessment, the internal audit work for most line ministries, except in the Ministry of
Finance, is not done to any recognized professional standard, and there is little follow-up of audit
recommendations.

Anti-corruption Monitoring and Evaluation Committee

At the January 2010 London conference, the Afghan government agreed to invite Afghan and other anti-
corruption experts to participate in an ad hoc monitoring and evaluation mission. Its purpose will be to
develop clear and objective benchmarks for progress and prepare periodic reports on national and
international activity for the Afghan president, the National Assembly, and the Afghan people, as well as
the international community.




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                           Page 22
APPENDIX IV: DEFINING CORRUPTION IN AFGHANISTAN

Corruption is commonly defined throughout the world as the abuse of public position for private gain.
Specific forms of corruption vary, but can include bribery, extortion, cronyism, nepotism, patronage,
graft, and embezzlement. Afghan law lists 18 specific acts or crimes committed by government officials
that would be considered as corruption, but does not include some types of corruption common in
other parts of the world. For example, international representatives in Afghanistan have bemoaned the
fact that the definition of corruption, as outlined in current Afghan law, does not mention nepotism or
simony (the buying or renting of official positions). Nor does the Afghan Civil Service Code define what
constitutes a conflict of interest for civil servants or address the issue of making false claims.

According to a March 2009 USAID-funded assessment, corruption in Afghanistan exists on two levels:
corruption of lower-level government officials and corruption of senior-level officials and their political
allies or extended families. Identified drivers of lower-level corruption in Afghanistan include a limited
supply of goods coupled with rising prices, while low government salaries can tempt government
officials to seek illegal income through corrupt practices. USAID reports that senior-level corruption is
particularly prevalent in Afghan construction and security industries, where the investment structure
supports contracting with a limited pool of firms. According to USAID, contract awards are often
controlled by upper-level officials in the Afghan government or the National Assembly, which can also
lead to corruption.

According to the USAID assessment, efforts to fight corruption efforts generally fall under two
categories—prevention and enforcement. Prevention efforts include the identification and mitigation of
vulnerabilities that allow corruption to take place and the reduction of opportunities to commit
corruption. An example would be a recent Afghan government project to simplify the vehicle
registration process by reducing the number of steps required to register vehicles. The concept was to
eliminate unnecessary interactions between the public and government officials that could lead to the
demand for or payment of bribes. The number of registration steps was reportedly reduced from 51 to
5. The World Bank has conducted a number of vulnerability-to-corruption assessments in Afghanistan
that have identified areas of risk within various sectors. Enforcement efforts deal with rule-of-law
systems to identify, try, and punish those who commit corrupt acts. In Afghanistan, the discovery of
crime is the duty of the police, and prosecution of crimes the duty of attorney general’s office. Special
tribunals have been established to help ensure that high-level corruption cases are adjudicated in a
timely and proper manner. Proponents of enforcement efforts suggest that dealing harshly with corrupt
officials also acts as a deterrent by causing potential wrongdoers to resist the temptation to commit
corrupt acts to avoid similar punishment.

Interestingly, according to the USAID assessment, Afghans also believe that international assistance
causes corruption in Afghanistan due to inefficiencies in high-cost delivery through international
organizations, nongovernmental organizations, and contractors. Afghan perceptions of international
“corruption” criticize perceived levels of high pay and overheads for contractors, consultants, and
advisors as a form of corruption, irrespective of whether the applicable rules were followed in
contracting. Further, the Afghan government views much of this assistance as corrupt simply because
the resources are channeled outside the national budget and outside of their control. This “external
budget” is a target of criticism regardless of whether outright corruption is involved.




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                              Page 23
APPENDIX V: COMMENTS FROM U.S. EMBASSY KABUL AND USAID




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning   Page 24
SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning   Page 25
APPENDIX VI: COMMENTS FROM CENTCOM, USFOR-A, AND CSTC-A




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning   Page 26
SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning   Page 27
SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning   Page 28
SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning   Page 29
SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning   Page 30
SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning   Page 31
SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning   Page 32
                  (This report was conducted under the audit project code SIGAR-007A).




SIGAR Audit-10-15 Anti-Corruption/Strategy and Planning                                  Page 33
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction is to enhance oversight of
                              programs for the reconstruction of Afghanistan by
                              conducting independent and objective audits, inspections,
                              and investigations on the use of taxpayer dollars and
                              related funds. SIGAR works to provide accurate and
                              balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies,
                              and other decision-makers to make informed oversight,
                              policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              released reports, testimonies, and correspondence on its
                              Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     400 Army Navy Drive
                                     Arlington, VA 22202
